<html>
<title> - THE FORGOTTEN: IRAQI ALLIES FAILED BY THE U.S.</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]






              


110th Congress                             Printed for the use of the 
1st Session          Commission on Security and Cooperation in Europe
_____________________________________________________________________
                                             
  
                     THE FORGOTTEN: IRAQI ALLIES FAILED BY THE U.S.

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                             JUNE 11, 2008


                            Briefing of the
            Commission on Security and Cooperation in Europe

                            Washington: 2015
                                     

            Commission on Security and Cooperation in Europe
                     234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7615051513361b171f1a581e1903051358111900">[email&#160;protected]</a>
                          http://www.csce.gov



                      Legislative Branch Commissioners

                                 

                                                              
                SENATE                                 HOUSE
    
                           
BENJAMIN L. CARDIN, Maryland,          ALCEE L. HASTINGS, Florida,
  Co-Chairman                            Chairman
RUSSELL FEINGOLD, Wisconsin            LOUISE McINTOSH SLAUGHTER,
CHRISTOPHER DODD, Connecticut            New York
HILLARY RODHAM CLINTON, New York       MIKE McINTYRE, North Carolina
JOHN KERRY, Massachusetts              G.K. BUTTERFIELD, North Carolina
SAM BROWNBACK, Kansas                  CHRISTOPHER SMITH, New Jersey
GORDON SMITH, Oregon                   ROBERT ADERHOLT, Alabama
SAXBY CHAMBLISS, Georgia               JOSEPH PITTS, Pennsylvania 
RICHARD BURR, North Carolina           MIKE PENCE, Indiana


                       EXECUTIVE BRANCH COMMISSIONERS

                     DAVID KRAMER, Department of State
                   MARY BETH LONG, Department of Defense
                DAVID STEEL BOHIGIAN, Department of Commerce

                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

             THE FORGOTTEN: IRAQI ALLIES FAILED BY THE U.S.

                                  ------------

                                 June 11, 2008

                                 COMMISSIONERS

                                                                   Page

Hon. Alcee Hastings, Chairman, Commission on Security and Cooperation 
in Europe..............................................................
                                                                      1
Hon. Mike McIntyre, Commissioner, Commission on Security and 
Cooperation in Europe..................................................
                                                                      7
Hon. Joseph Pitts, Commissioner, Commission on Security and Cooperation 
in Europe..............................................................
                                                                     16

                                     MEMBER

Hon. Maxine Waters, a Member of Congress from the State of California..
                                                                     14

                                   WITNESSES

Kirk Johnson, Founder and Executive Director, The List Project.........
                                                                      3
Christopher Nugent, Senior Counsel, Holland & Knight LLP...............
                                                                      7
Ibrahim, an Iraqi Citizen..............................................
                                                                     10

                                  (iv)


 
             THE FORGOTTEN: IRAQI ALLIES FAILED BY THE U.S.

                              ------------

                             June 11, 2008

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 10:00 a.m. to 12:25 p.m. EST in 318 
Rayburn House Office Building, Washington D.C., Congressman Alcee 
Hastings, Chairman, presiding.
    Mr. Hastings. Good morning. Let me gavel our briefing to our 
session. And I'd like to welcome all of you to the commission briefing 
about the plight of Iraqi refugees, who have worked for the United 
States and Iraq and whose lives have placed in danger for that service, 
and the work of an incredible organization, The List, a project to 
resettle Iraqi allies, that was created to help them.
    While it's heartening to learn about this effort and the many 
Iraqis The List Project has assisted, it is at the same time 
disheartening and distressing that such an undertaking is even 
necessary. It is because of the failure of our government to do what it 
has as a moral obligation to do--help those who have helped us.
    In May the U.S. opened its first processing office in the Green 
Zone in Baghdad for Iraqi allies, something that I had recommended a 
year ago to administration officials.
    The founder and driving force behind The List Project is Mr. Kurt 
Johnson, who worked in Baghdad and Fallujah in 2005 as the coordinator 
of reconstruction for USAID.
    During his time in Iraq, Mr. Johnson tried to help one of his 
friends, who had been identified as working for Americans and had 
gotten death threats. The U.S. government did not do anything to help 
the Iraqi, so Mr. Johnson stepped in and tried to find a way to save 
his friend.
    In the process, more and more Iraqis found out about Mr. Johnson's 
efforts and sought this assistance, and The List Project was born 
officially on June 20th, 2007, World Refugee Day.
    Since March 2003, the United States has admitted fewer than 8,000 
Iraqi refugees. Sweden, by comparison, has accepted 40,000 Iraqi 
refugees in the same time period, and a total of 80,000.
    The administration has set a goal of admitting 12,000 Iraqi 
refugees by the end of this fiscal year; however, it is questionable as 
to whether they will be able to meet that goal.
    Ambassador Foley recently stated on paper, ``We feel pretty good 
that we can reach our goal.'' He further noted that any number of 
hitches could prohibit resettlement to the United States.
    To put this in historical perspective, after the fall of Saigon in 
the spring of 1975, more than 110,000 Vietnamese allies of the United 
States were airlifted to Guam, and they were processed for resettlement 
to the U.S. in a matter of months.
    Three individuals are with us today to describe their experiences 
in their work: Mr. Kurt Johnson, the founder of The List Project; Mr. 
Christopher Nugent of the law firm of Holland & Knight, who is 
providing pro bono legal services for those Iraqis on the list; and an 
Iraqi, whom Mr. Johnson and Mr. Nugent helped to resettle in the United 
States.
    I have the responsibility of protecting our third panelist. His 
name will remain anonymous, in order to protect members of his family, 
who remain in Iraq.
    A moment of personal privilege with reference to that. It takes an 
extreme amount of courage to come forward and talk about matters when 
your family is at risk, so I'm deeply appreciative that our witness is 
here with us today. And I'm certain that the testimony that he provides 
will benefit us all.
    Sometimes it's necessary for people to understand where you're 
coming from, as they say in the vernacular. I have had the good fortune 
of traveling in this region on a rather continuing basis throughout the 
Middle East.
    And in December I visited Jordan. And I learned how many Iraqi 
refugees were there and how many were on their border, and then I began 
developing further interest in it.
    And the staff of the Helsinki Commission, particularly Lale Mamaux 
and Marlene Kaufmann, worked with me actively in developing legislation 
dealing with this subject. That legislation now rests in what will 
ultimately by the supplemental bill. And we started at $60 million for 
Iraqi refugees. It's now up to $100 million.
    I cite to that, because I still think that's a pittance by 
comparison to what's needed. There are a million Iraqi refugees in 
Syria. There are an unknown amount that are in Iran. We know of the 
600,000 in Jordan. We know of the considerable number that are along 
the Syrian, Jordanian and Iranian borders that are internally 
displaced, which is yet another phenomenon of consequence. And 
therefore, I feel that it's incumbent that we pursue this undertaking.
    In May in Baghdad, I asked President Maliki, in light of the fact 
that his country had a $30 billion surplus, what, if any, amount of 
money did he and his government intend to contribute toward the 
developing humanitarian crisis in that region.
    In addition thereto, I asked him, ``I know that you and many of 
your Arab neighbors are from different sects, but at the very same time 
I know that this humanitarian crisis will cross all religious and 
geographic borders. Certainly, you with your contacts in the Arab 
League and with the Organization of Islamic States must have some 
discussion, and what, if anything, are you discussing with them about 
their contributions?''
    I won't' go into great detail, but his response to me was the Iraqi 
government had contributed $25 million towards the resettlement, and 
then he expected that maybe in next year's budget there would be $200 
million or in a supplemental--his exact words.
    His response to me regarding his Arab neighbors, without quoting 
him, the essence of it was that he didn't want them to create mischief 
or create problems in the regions. And specifically regarding Saudi 
Arabia, he said, ``We don't need their money.''
    Congressman John Lawson from Connecticut and I looked at each other 
immediately, and I know that we were channeling thoughts about if you 
don't need your neighbors' money to assist you in a humanitarian 
crisis, how is it then that you come to need the money of American 
taxpayers and others from Europe and elsewhere around the world?
    I was highly offended by his response. I still think it 
unsatisfactory and will pursue that in appropriate legislative fore as 
we progress along. But I lay it as the backdrop.
    Mr. Johnson, let's begin with you, and we'll go forward.
    Mr. Johnson. Thank you, Chairmen Hastings and Cardin, Ranking 
Members Smith and Brownback, and members of the commission. We 
appreciate the opportunity to appear before you today to discuss The 
List Project to resettle Iraqi allies and its work with the Iraqis who 
have become imperiled due to their affiliation with the United States 
of America in Iraq.
    The List Project officially turns one year old this month. It was 
unofficially and unintentionally launched on my laptop in December 
2006, when I wrote an op-ed in the Los Angeles Times about a former 
Iraqi colleague of mine from the U.S. Agency for International 
Development, for which I worked in Baghdad and Fallujah in 2005.
    My former colleague, who had been helping us implement the $130 
million program to rehabilitate Iraq's education sector, was 
photographed while leaving the Green Zone by Achuar, militia members 
whose sole function is to identify for assassination Iraqis who are 
collaborating with the United States.
    The day after his affiliation with the U.S. became known, he 
returned home to find the severed head of a dog with a note pinned to 
it saying that his head would be next. When he brought news of this 
threat to his employer, USAID, he was offered a month's pay without 
leave, at which point his job would be given to someone else.
    There was no embassy level assistance in helping this faithful, but 
targeted employee expeditiously out of the country. He fled to the 
Gulf, and after years of service to the United States government, he 
was now on his own.
    He wrote to me for help. It seemed impossible that there wasn't 
some process in place, so I wrote the op-ed, thinking it might help my 
colleague. What resulted was not any swift resettlement, but a 
deafening cry for help from many other Iraqi colleagues of mine, who 
had suffered similar fates.
    In February of 2007, I went to the State Department's Bureau of 
Population Refugees and Migration to deliver the first list of roughly 
40 names of former USAID employees, who were now refugees or hiding 
within Iraq due to threats. I received a commitment from the bureau 
that they would submit these cases to the UNHCR for priority 
processing.
    Since that first meeting 16 months ago, the list has grown at an 
alarming pace and now approaches 1,000 names. So far, only 31 U.S. 
affiliated Iraqi employees off the list have been admitted. When they 
include their family members, the number rises to 92 Iraqis.
    In the last 10 days alone, we have received 21 new applicants, who 
with families add approximately 40 more names to the list, which 
constitutes the largest list documenting the claims of U.S. affiliated 
Iraqis.
    We have been compiling the critical information that the U.S. 
government would need to process a refugee: full names, dates of birth, 
phone numbers, e-mail addresses, scans of ID badges issued by our 
government and military, performance evaluation reports of former 
employees of the State Department and USAID, letters of support from 
Marines, soldiers, diplomats, aid workers and contractors, commendation 
and awards certificates, names and phone numbers of American 
supervisors vouching for their service, and so on.
    We have also included copies of many death threat letters. These 
are, I would propose, the most documented refugees in the world. Many 
of them have even undergone background checks and polygraph 
examinations before serving our country.
    To undertake this effort, The List Project has partnered with three 
top law firms, Holland & Knight, Proskauer Rose, and Mayer Brown, which 
together have committed nearly 200 attorneys and thousands of hours of 
pro bono support to every Iraqi on the list.
    In a moment you will hear from my esteemed colleague at Holland & 
Knight, who directs that firm's efforts in working with the U.S. 
affiliated Iraqis on the list. You will also hear from a former 
colleague of mine from Baghdad, who now works to manage the caseload of 
the Iraqis on the list at the firm of Proskauer Rose.
    Many more firms have requested to partner with the project. We have 
all been compelled by a sense of moral obligation to help these Iraqis, 
whose decision to aid us has cost them their country.
    I'm not sitting before you today as a lifelong expert on refugee 
matters, but as a former employee of the United States government in 
Baghdad and Fallujah, who had the honor of depending on these Iraqis, 
one of whom sits in concealment to my side.
    I look forward to the day that The List Project is no longer 
relevant, as a result of America having recognized at last its urgent 
duty to this particular group of Iraqis.
    The Congress has indicated its intent to rescue our Iraqi staff to 
the executive branch to the Refugee Crisis in Iraq Act, commonly 
referred to as the Kennedy legislation, which enjoyed broad bipartisan 
support. And while the Departments of State and Homeland Security have 
been trying to keep up, they are clearly under resourced and 
understaffed.
    More importantly, they have not received the leadership required 
from the White House. It is, after all, the president of the United 
States who sets the determination on refugees each year for our 
country. To date, he has not yet uttered a syllable as to what he 
thinks our country owes Iraqis who are being hunted for assassination 
as a consequence of helping us.
    In the absence of presidential leadership, our bureaucracies are 
struggling to contort their traditionally slower moving processes 
around the demands of an emergency, where the luxury of time is not 
afforded.
    We have had very welcome and positive interaction, though, with the 
recently arrived refugee coordinator at the Baghdad embassy, who has 
been tasked with implementing the Kennedy legislation instruction to 
begin in-country processing for U.S. affiliated Iraqis.
    Her efforts, and those of the very small team working with her, are 
without question commendable. We must not forget the harrowing 
circumstances in which they labor. Their laudable work on the ground, 
however, has not been accorded the resources necessary to successfully 
implement this legislation.
    Iraqis are granted interviews, but accessing those interviews is a 
Herculean challenge. Our lawyers have had to tap informal networks of 
colleagues working as contractors and federal employees in the Green 
Zone, who do not work at the State Department, but assist the process 
by escorting Iraqis through checkpoints and into the palace.
    It is safe to say that without these connections that we retain due 
to our own service in Iraq, the Iraqis on the list would be unable to 
reach their interviews.
    I recently heard from an Iraqi couple my age I last saw in Jordan 
earlier this year, whom I'll call Alia and Hamada. After working as 
interpreters for our Army's 10th Mountain Division and the National 
Democratic Institute for three years, the threats they faced as 
collaborators with America had reached such a degree that they packed 
their lives into a suitcase and fled Iraq.
    They went to Jordan illegally, where they immediately applied to be 
resettled to the United States. They kept to themselves, rationed out 
their life savings, as Iraqis cannot obtain work permits anywhere in 
the Middle East, and waited for a helping hand from America.
    For the next 18 months, they listened to a procession of senior 
administration officials making proclamations and promises about our 
country's moral obligation to resettle these Iraqis.
    They allowed for some hope and considered a life in America free of 
death threats or the oppressive possibility of being forced back to 
Iraq, where their colleagues are still being hunted, kidnapped, 
tortured and assassinated, despite perceived successes of the surge.
    Alia got pregnant. They waited, clearing hurdle after hurdle, 
patiently retelling their story to the array of officers, who struggled 
to implement a labyrinthine resettlement process that let in one-fifth 
the Iraqis between '03 and '07 than Sweden, whose only involvement in 
the war has been to shelter its refugees, has managed to admit. Many 
Iraqis with whom I served now call Stockholm their home.
    After successfully clearing the penultimate step of the process, 
approval from the Department of Homeland Security, all they had left 
was to pass a medical test, and they would be on their way. Alia and 
Hamada were elated at the prospect of refuge in America, but were 
terrified of one aspect of the medical test, a chest X-ray for Alia 
used to check for tuberculosis.
    Knowing X-rays might pose a risk to her baby, she inquired about 
whether or not the X-ray might be waived or an alternate method 
utilized. She was racing the clock. She had about six weeks left before 
it would be unsafe to fly, and as an illegal she refused to face the 
uncertainty of delivery in a Jordanian hospital, where husband might be 
arrested or care denied. A chest X-ray stood between her dream of 
America and the dread of Iraq.
    I pressed her case with the Department of State, which promised to 
look into it. Week after week passed, but Alia and Hamada could not get 
their waiver. They are now back in Baghdad, hiding. Alia is uncertain 
about which hospital, if any, is safest for her to deliver her baby, 
which is due any day.
    Is this America at its best? Is this really the most we can do for 
our Iraqi employees? I believe the crisis of U.S. affiliated Iraqis 
represents the most urgent moral and strategic imperative the war has 
produced. How we address it will impact our standing in the region for 
at least a generation to come.
    As the countless Marines and soldiers helping The List Project and 
their interpreters understand full well, we cannot leave our allies 
behind in the trenches. On a strategic level, it would be naive to 
think that we can make new friends in the region if we turn our backs, 
however slowly, on old ones.
    We must not forget that we have the capacity to rapidly resettle 
refugees. We are a super power, after all, with many precedents in 
recent history from which to work.
    Great Britain, our chief coalition partner in Iraq, has decided 
against leaning on an overloaded UNHCR to process their endangered 
Iraqi staffers. In April of this year, Prime Minister Brown followed 
the example set by our ally, Denmark, by ordering an airlift of British 
affiliated Iraqis directly to a military airfield in Oxfordshire, where 
they will be processed for asylum.
    Are we that different in constitution from the United Kingdom that 
we couldn't manage something similar?
    The White House could also consult our own recent history. In 1996 
President Clinton ordered Operation Pacific Haven, which flew nearly 
7,000 Iraqis from the north, many of whom were U.S. affiliated, to be 
processed at our military base in Guam.
    There they were kept safe from any retribution by Saddam Hussein, 
and Americans were kept safe while the refugees were screened, and 
bureaucracies had the access they needed to function at a swift pace.
    When we consider that the Department of Homeland Security was 
unable to secure visas for its agents to process refugees in Syria for 
several months this past year, all but halting America's resettlement 
program in the country hosting the greatest number of Iraqi refugees, a 
Guam option seems eminently practical.
    Upon completing Operation Pacific Haven, General John Dallager 
expressed his optimism, saying, ``Our success will undoubtedly be a 
role model for future humanitarian efforts.''
    One journalist judged that fewer than a dozen of our C-130s 
Hercules planes could transport the entire list to a safe processing 
point, such as Guam.
    As an aside, I have recently become aware that some at the 
Department of State have been discussing the idea of using a military 
base in Kuwait, whereby the Department of Defense would fly SIV 
applicants to expedited processing by safely an ensconced and well 
equipped team, a plan which would bypass many of the pitfalls currently 
thwarting refugee processing.
    We are at a dangerously absurd point in the war on terror when 
Nelson Mandela makes it onto the terrorist watchlist. We will have few 
values to protect against terrorists, if those who have served our 
country at great cost and with distinction are left to fend for 
themselves.
    It seems that helping Iraqis like Alia and Hamada represents the 
best opportunity for the United States to deliver a blow against the 
very notion of terrorism.
    In recognizing their service to us in airlifting them to safety 
here, we send a clear message that the United States does not abandon 
its principles in periods of hardship, that we have not lost our 
capacity to see as friends and not as terrorists, and that our moral 
compass still functions accordingly.
    I thank you for your time and look forward to your questions.
    Mr. Hastings. I've been joined by my distinguished colleague from 
North Carolina, a member of the commission and obviously a member of 
Congress, Mike McIntyre.
    Mike, we just heard from Mr. Kirk Johnson, who is the executive 
director for The List Project. And among the things that he just said 
that I find in his riveting testimony is the following. ``I believe 
that the crisis of U.S. affiliated Iraqis represents the most urgent 
moral and strategic imperative the war has produced.''
    That jumps out at me, Mr. Johnson, very profoundly.
    Mr. McIntyre. Thank you, Mr. Chairman. You may proceed.
    Mr. Hastings. Then we'll go to our next witness. And for the 
benefit of our visitors, the curriculum vitae or biographical 
information of these distinguished gentlemen are available to you.
    So I won't go into great detail about all of that background you 
have, Chris. But I would ask you to hold just a moment until another 
leader in this matter gets up to the podium--Maxine Waters from 
California.
    And Max, we're on our second witness. So do you want to proceed, 
Christopher?
    Mr. Nugent. Thank you, Chairman Hastings and Commissioner McIntyre 
and Commissioner Waters and Co-Chairman Cardin. I'm Chris Nugent. I 
work as a full-time pro bono senior counsel with the law firm of 
Holland & Knight, where I work exclusively on domestic and 
international law and policy issues.
    People would say my pro bono position is a dream job. It's 
typically 3,000 hours a year, 9 a.m. till midnight. And thanks to work 
with Kirk, the e-mails are coming from all around the world at all 
times.
    So it's an honor and privilege to brief the commission today 
regarding the current state of our nation's historic humanitarian 
commitment to protect and resettle our Iraqi allies.
    I want to share specifically a few thoughts and recommendations 
about the need and access to counsel and the essential role that 
counsel can play in our efforts to identify and protect Iraqi refugee 
allies and facilitate their safe and expeditious resettlement.
    I have the privilege of supervising our firm's participation in the 
list. Today we have over 50 attorneys and paralegals and law clerks 
working on nearly 200 cases, 684 individual Iraqi allies and their 
families in toto.
    But as Kirk had mentioned, we've only successfully resettled 31 of 
these cases. These 31 success stories, though, give us a new hope for 
peace and safety to the 92 heroic men, women and children who were 
resettled.
    Our participation in The List Project actually dovetails with our 
ongoing pro bono work with the Penn Centers Freedom to Write Program, 
where we represent Iraqi journalists, poets and authors, who have been 
threatened by the insurgents.
    We consider The List Project a momentous paradigm shift in the way 
America approaches refugee processing and resettlement.
    The collaboration that we have between Kirk, Holland & Knight, the 
law firms of Proskauer and Mayer Brown, and institutional actors such 
as UNHCR, State Department, DHS and NGOs in the field exist for one 
single purpose: to ensure that the United States fulfills its moral 
obligation to protect our courageous Iraqi allies from the brutality 
that is too frequently visited upon them for helping the coalition 
forces in bringing peace, freedom and democracy to the people of Iraq.
    I would like to take this opportunity to commend the dedication and 
professionalism of the extraordinary public servants with whom we've 
worked, that we know are committed to the same values and the same 
mission. They've made this landmark undertaking possible, and they're 
ultimately responsible for its success.
    I'd like to make clear that any obstacles we've experienced or 
observed in the refugee status determination and resettlement process 
are not attributable to any one individual or group, but rather to 
broader challenges facing what is the largest mass refugee resettlement 
system in the world.
    I discuss these obstacles for the sole purpose of fostering a 
creative, robust dialogue among stakeholders and policy-makers about 
how we best accomplish our shared mission of protecting and resettling 
our allies.
    Unfortunately, we've encountered breakdowns in the system that have 
led to dire consequences, some that Kirk has mentioned in terms of 
medical. These failures may be seen as aberrational, but the severity 
of the consequences necessitates prompt and earnest consideration about 
how to prevent them from happening in the future.
    The current process that we have identification, adjudication and 
resettlement has proved to be Byzantine, involving numerous lengthy 
credibility interviews over the course of a period of months to years.
    Complicating that is the judicatory process is so hermetically 
sealed, because there is no right to counsel, so it's impossible to 
clarify information or get status updates--and most troubling, expedite 
adjudication to make alternative arrangements in emergency cases.
    If the approach to refugee resettlement efforts adopted by other 
nations like the Scandinavians can be thought as a lifeboat, the 
current U.S. approach performs more like a cruise ship.
    The inefficiencies of our cruise ship model often cause refugees, 
such as the ones that Kirk described, to jump ship and fend for 
themselves in the vast abyss, contributing to an environment which some 
observers can describe as social Darwinianism.
    In my estimation one of the key steps towards mitigating against 
this inefficiency is to increase institutionalized acceptance of access 
to counsel throughout the refugee process.
    I would now like to use the remainder of my time to share a few of 
the challenges we've encountered and to illustrate the benefits of 
access to counsel.
    Many of our allies remain in Iraq, where they're subject to the 
perpetual dangers of kidnapping, torture and death. Many others have 
fled with their families to neighboring countries in the Middle East 
and to other countries around the world.
    Indeed, we have Iraqi refugees in such far-flung locations as 
India, Malaysia and even Ecuador. This broad geographical dispersal of 
allies poses challenges for a traditional refugee model geared more 
towards identifying and resettling refugees in a geographically 
concentrated area.
    Issues of distance, communication and security in the Iraqi refugee 
context makes getting timely, accurate information to the most 
vulnerable refugees more challenging, especially in emergency 
situations, where responsiveness of institutional actors can mean the 
difference between life and death.
    In our judgment this is one of the many scenarios in which well-
trained attorneys can contribute both to the protection of refugees and 
also aid the efficient, effective functioning of the entire process.
    One of the most tragic examples of the system's inability to 
respond to the pressing needs of Iraqi refugees comes from a case I 
worked on in which an Iraqi ally was forced to return to Iraq due to 
his inability to secure adequate medical treatment for his pregnant 
wife, who was critically ill.
    I received the following e-mail after he returned to Iraq in hiding 
in and in fear for his life. ``I have very bad news regarding my wife's 
medical issue. Her condition is very bad now, and she may have early 
delivery, and we might lose the baby. I don't know. Now she has 
complicated treatment, and her right kidney has increased in the size 
and very dangerous on the surrounding organs, such as urinal system and 
other surrounding organs. I don't know, but it seems really bad.''
    Several weeks later, I was devastated by the update he provided me 
by e-mail from Iraq. ``This is to inform you all that today is the 
saddest and the most worse day in my life. We lost our newborn son, and 
my wife is in danger situation. And please, please save the rest of my 
family. I cannot live anymore. I bury my son, who was supposed to bury 
me. Consider it my last breath.''
    Despite the relative frequency with which we've encountered the 
challenge of medical emergencies pending adjudications, we have found 
no access to a viable institutional process for expediting these cases.
    The essential impediment for attorneys who seek to advocate on 
behalf of clients facing such emergencies is that there is no statutory 
or international right to counsel in the adjudication process.
    So we contact DHS, we contact State Department, we bring all of 
this information to them, and then we're told we will work on it. Then 
we're not given updates. The refugees are not given updates. No one 
knows what is happening in this hermetically sealed process.
    This is in counter distinction to our asylum process in the United 
States, where asylum seekers do have the right to counsel, and counsel 
does provide a vital role in terms of preparing clients for their 
interviews, helping them gather and organize their evidence, and 
understanding the process, as well as allaying the incredible anxiety 
that they're suffering abroad.
    The NGOs that are working with the State Department are funded by 
State Department. They follow a protocol that State Department sets. 
They are not independent, neutral actors, where they can get candid 
information. So that's why independent counsel provides that function, 
and I do think it's something that Congress should consider about 
trying to increase access to counsel in this process.
    And I think the benefits are not only to the refugees. It's to the 
institutional stakeholders as well. Trained attorneys are able to 
screen out obviously frivolous claims, which will allow adjudicators to 
focus on those that deserve their attention, and that increases their 
efficiency.
    Additionally, institutions can use counsel as a convenient go-
between in instances of critical emergencies like those I've discussed 
today.
    The current humanitarian efforts of The List Project to protect and 
resettle our Iraqi refugee allies constitute a vital strand in the 
enduring moral fabric of our great nation. As such, it is imperative 
that we do everything in our power to make sure it succeeds.
    Increasing access to counsel during the refugee resettlement 
process is one small, but vital step towards achieving that success.
    I thank you for your time. I look forward to answering your 
questions. Thank you.
    Mr. Hastings. Thank you very much.
    We've been joined by our distinguished colleague and member of the 
commission, Joe Pitts, as well, and I'm going to proceed.
    Joe, we've heard from two of our witnesses, and now we are going to 
hear from our witness that is here courageously, but anonymously. We've 
given him the name Ibrahim.
    And I would like now if you would proceed to give us any testimony 
that you would like. And then we'll turn to questions from our 
colleagues.
    Mr. Ibrahim. Thank you, Chairman Hastings and members of the 
committee.
    In 2003, when the United States went to war against Saddam Hussein, 
I and many other Iraqis didn't know or care about the political debate 
occurring in the United States Congress about the war.
    Iraqis wanted to live the American life. We wanted to taste Big 
Macs, eat at Pizza Huts, listen to American music. Iraqis dreamed about 
these simple things. We wanted to work with Americans, who would teach 
us about the world outside. We wanted to pursue the American dream.
    Unfortunately for us, the Iraqis who worked for the United States 
government, the war turned into a long nightmare.
    I would like to begin by shedding some light on the Iraqis' 
commitment to The List Project that Kirk Johnson is advocating for. 
Even though we had these simple reasons to work for the U.S. 
government, yet we were asked by the U.S. government for our support.
    And when terrorism started to breed in Iraq, Iraqis like me saw 
only one option. This was a battle between what we dreamed about and 
what we feared most. And we were tired of being afraid.
    I joined USAID in 2003. I was very excited at that time, as were 
almost all my Iraqi colleagues who were working there. We believe, and 
we still continue to believe, that we joined the right side. We worked 
in many places all around the country, at U.S. embassy regional 
offices, U.S. Army posts and with U.S. contractors.
    We dreamed of creating a modern and prosperous Iraq. They were 
dangerous days, when we knew we put ourselves in the front line of a 
big battle, yet we were comforted by our belief that the world's 
strongest power would protect us against terrorist gangsters, who are 
with no values or courage.
    I worked hard and with dedication. My supervisors appreciated my 
work and gave me on the spot a meritorious award, along with letters, 
praising my dedication and hard work.
    I literally risked my life every day for the American government, 
and I risked the lives of the Iraqi staff who worked with me to bring 
anything that our American colleagues needed from outside the Green 
Zone. In the simple things, we wanted to remind them of their homes 
back in the states, such as low fat yogurt with apricots sometimes.
    Soon after I joined USAID, my country became classified as one big 
dangerous threat zone. High walls separated the American citizens from 
the rest of the country, yet there was one problem for Iraqis who 
worked for the Americans. We were not American citizens.
    We lived on one side of the wall and worked on another side. 
Outside those walls the violence grew worse. Outside the Green Zone, we 
were hated by the Iraqis, who no longer considered us Iraqis. Inside 
the Green Zone, no one understood that, according to Islamic culture, 
Iraqis like me were worse than infidels.
    In a divided country, the only thing that unified everyone in Iraq 
was hatred of those individuals who worked for the United States, who 
were viewed as collaborators.
    In the days after the war began, the majority of Iraqis didn't view 
America as an occupier. As the Iraqi people started to regard the 
United States as an occupying Army, and even a violent aggressor, it 
was too late for Iraqis working for the United States government to 
retreat or hide. We were already carrying the tattoo that is 
unforgivable in an Islamic culture. We were the collaborators with the 
infidels.
    These were terrifying days. The street vendors would shout, ``Come 
watch the latest CD showing the beheading of a collaborator.'' More and 
more of my colleagues were threatened, but nothing was done to help us. 
We were chased and followed.
    I remember well once when angry Iraqis spit at us right at the 
checkpoint into the Green Zone in front of the American soldiers. 
Nothing happened. USAID had a Foreign Service National Committee, FSN 
Committee, who represented the Iraqi staff. I was a member of that 
committee.
    When the first Iraqis were killed because they worked for the 
United States, the FSN Committee asked the United States to stop 
exposing us to needless dangers. For example, our identity was never 
protected. Our photos and names were available on USAID Web sites, 
which anyone could access.
    Soon, our photos, names and addresses were more public to the 
Iraqis than the U.S. effort to reconstruct Iraq. When we asked if there 
was a plan to protect Americans working for the United States, we 
discovered that it's very clear that there was nothing in place to 
protect us.
    We suggested simple ways to improve the situation, but nothing was 
done. This led us to believe that our lives were worthless in the eyes 
of those who were supposedly trying to win the hearts and minds of 
Iraqis. We didn't mean anything to the Americans.
    But we meant something to the terrorists. Killing a supposed 
collaborator sent a clear message about who really controlled the land. 
Sadly, like so many other Iraqis who worked for the Americans, my life 
became a horror movie.
    It started when I had a serious health emergency. My family had to 
take me out of the emergency room, afraid of militiamen who enter the 
emergency room and kill people, if they identified me.
    Then my own mother, 67 years old, was beaten in the street, because 
her son worked for the Americans. In another incident, an Iraqi 
policeman threatened me, and I was assaulted by an Iraqi policeman. I 
reported all these incidents. Nothing happened to protect me.
    Eventually, I was sentenced in a very direct way. I received a 
death letter, telling me I was the target of JAM, Jaish al-Mahdi, the 
al-Mahdi militia. I had to run away.
    At that time networks existed that smuggled many of my former 
colleagues to Sweden. I heard that Sweden was providing sanctuary to 
Iraqis who worked for the U.S. government. I decided to take the same 
dangerous trip that many of my colleagues took when their lives were at 
stake.
    The smugglers took me on a dangerous trip to India, and along the 
way the smugglers treated me brutally. Unfortunately, I was arrested by 
the Indian immigration authorities and deported to Syria. There I saw 
the Iraqi refugees suffering from humiliation and lack of basic human 
needs.
    I could not stay, so I continued my journey out of the Middle East 
through the smuggler network. They decided to take me to Egypt. 
Unfortunately, the Egyptian police did not allow the smugglers to 
succeed. I had no option but to hide in the slums of Cairo. I lost all 
hope and wished to die, so I could save myself from further suffering.
    Eventually, I registered with, and I'm still under the protection 
of the United Nations High Commission for Refugees, UNHCR. 
Nevertheless, the Egyptian authorities arrested me, because I had 
illegally entered their country. I spent three weeks in jail, where I 
was tortured and beaten and humiliated.
    UNHCR came to my rescue by protesting that if the Egyptian 
authorities deported me to Iraq, I would be killed. Even though I was 
released from my prison, my life had become nothing but a serious of 
hardships. Every day I questioned God's wisdom and wondered does a 
person like me, who lost everything and was rejected by his own country 
and people, should live.
    During these dark times, the only person who knew about me and who 
was in touch with me was Kirk Johnson, my old American friend and 
colleague from USAID Iraq. No one in the world knew anything about me 
and who I was, except Kirk Johnson.
    He was the only connection that reminded me of my humanity. He gave 
me hope, when I had nowhere else to turn. Kirk Johnson put me in touch 
with Chris Nugent, who provided me with legal services in order to help 
me resettle in the United States.
    When I arrived in the United States, I decided to work with Kirk 
Johnson and help the countless Iraqis like me, who could be helped by 
The List Project. Kirk introduced me to Eric Blinderman, an American 
attorney from Proskauer Rose, who has dedicated himself to help the 
Iraqi refugees.
    At Proskauer Rose I saw many other attorneys, who are assisting 
Iraqis targeted for death because of their work with the United States 
and who remain stranded in Iraq, desperate for assistance and a chance 
to find safety.
    There is a Iraqi women whose son was killed before she worked for 
an American organization. There is an Army translator in Fallujah, 
reaching out for Kirk Johnson. There are hundreds of Iraqi families 
with children, old men and women. These are the families of those who 
served the United States of America and are now in danger, like I was. 
And they have no one to help them, but Kirk Johnson and The List 
Project.
    The reason for this is that the United States government support of 
refugees has been ineffective, particularly for those who are 
threatened because they decided to help the United States.
    Thankfully, progress has been made through the efforts of Congress 
and the passage of the Iraqi Refugee Crisis Act, but even these 
efforts, which have led to the processing of Iraqi refugees in Baghdad, 
are imperfect.
    For example, despite the heroic work of the refugee coordinators on 
the ground in Baghdad, they have insufficient staff and resources to 
process the applications which are sent to them. Even worse, Iraqis, 
who are called for interviews inside the Green Zone, are prohibited 
from entering without escorts or proper international zone badges.
    Since the refugee coordinators are understaffed, they do not have 
the ability to escort the applicants from the Green Zone checkpoints to 
and from their interviews. This has led to a catch-22. A mechanism of 
people to escape Iraq has been created, but only those with sufficient 
connections to enter the Green Zone can take advantage of it.
    The United States can certainly do better. For example, the Danish 
government evacuated the Iraqis affiliated with their efforts. Britain 
did the same, as did Australia. Why can't America sent a plane, not 
with bombs this time, but to evacuate those most at risk in Iraq?
    This was done at the end of the Vietnam War, when over 100,000 
Vietnamese were relocated to the United States. And at the end of the 
first Gulf War, the United States processed Iraqi refugees in Guam, 
before resettling them in the United States.
    Today, I believe I was lucky enough to be saved by Kirk Johnson and 
The List Project so that I could speak for those Iraqis who worked for 
the United States government in Iraq. They deserve to have their voices 
heard. Their efforts to help America should be appreciated.
    Please do something to preserve the values that America represents. 
Save those people. Please do something so that the whole world will 
know that the United States of America stands by its friends and 
allies. Please do something. Thank you very much.
    Mr. Hastings. Thank you.
    I also add my thanks to the extraordinary efforts of the attorneys 
from the respective firms that have already been identified, and 
certainly Chris Nugent from Holland & Knight.
    As an attorney, I know of pro bono work well, but not in this kind 
of capacity. But I deeply appreciate the fact that lawyers are 
involved, and their associates and our friends and NGOs and others that 
are working with them are involved.
    I'll turn to questions now. And since my colleagues--this is our 
busiest day on the Hill; I'll go in the order in which they came, and 
I'll reserve any questions I have until my colleagues have concluded 
with any statement or question they may wish to make.
    And Mr. McIntyre, if you will?
    Mr. McIntyre. Thank you, Mr. Chairman. I'll be brief.
    There are approximately 1,000, from what I understand, Iraqis on 
your list. How many do you see actually being resettled in the United 
States?
    Mr. Johnson. Well, I wouldn't be doing this if I didn't think that 
all of them could be and should be resettled.
    Mr. McIntyre. Do you have specific recommendations that you can say 
one, two, three, four, this is what we would recommend Congress do, in 
light of your experience in working with this situation?
    Mr. Johnson. Well, as I mentioned in the opening statement, 
Congress has expressed its intent. You guys have been trying to address 
this issue, but I think the responsibility relies with the president.
    And what I've been pushing for is for us to look at the precedents 
and examples that have been set, not only by the Brits and by the 
Danes, who have conducted airlifts of their staff, but by our own 
country, and specifically Operation Pacific Haven, which in 1996 
airlifted almost 7,000 Iraqis to Guam, many of whom were U.S. 
affiliated.
    And they were processed there in safety, and our officers from 
State and the immigration refugee resettlement process had full access, 
and Americans were kept safe from any potential bad apples. And those 
Iraqis are now thriving citizens of our country.
    And I see no reason to believe that we can't do this again, if we 
have the presidential will.
    Short of that, we're left with this labyrinthine process, where 
Iraqis never know what the next step is. They bring their badges, their 
ID cards, and they say the same things over and over and over again.
    And we've been giving every possible shred of evidence and 
documentation to the government to try to help them, in a spirit of 
collaboration with our own government, to help us all live up to our 
obligation to these Iraqis.
    And for the life of me I can't figure out why one person gets 
through, and why another person who's been through the exact thing 
doesn't.
    Mr. McIntyre. All right. With the frustration with the 
administration not taking action, is there anything else you would 
recommend us, as legislators, to take action?
    Mr. Johnson. Well, I know that the steps that have been taken by 
State and Homeland Security to try to implement the legislation--some 
are in the right direction, but the State Department needs access, 
logistics and support to help the Iraqis that are in-country actually 
get to the interview.
    And we have been using our own informal network to call on friends 
who are still in the Green Zone, Americans who are not part of the 
State Department process, to take time out of their day to go escort an 
Iraqi in and wait outside the office while they get interviewed, 
because the team that's doing the processing there, they don't have 
enough people.
    The other thing that I would ask Congress to do is to ask the 
Department of Homeland Security where their policy memo is on enacting 
the Kennedy legislation. To my knowledge, they still have not drafted 
one, and this is the action plan that the department will need to 
actually implement the legislation. In the absence of such a memo, it's 
hard to conceive how there will be any meaningful implementation of 
your congressional intent.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you. Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman. Let me thank you for 
the work that you're doing as the head of the Helsinki Commission and 
the emphasis that you have placed on the plight of the Iraqis who are 
trying to seek asylum in the United States, and particularly those 
whose lives are in danger.
    I appreciate your work, and I think as a result of your work, that 
we can find a way to strengthen the statutes and to fill the gaps and 
see if can't do better than we're absolutely doing.
    Let me thank these two gentlemen who are at the table today.
    Mr. Johnson, the mission that you have undertaken is extraordinary, 
and I am simply moved by the fact that you as an individual decided 
that you could do something, and you would do something. And it extends 
beyond getting the Iraqis, who are in danger, here, but helping them, 
once they get here, to try and find jobs. You are to be commended for 
that. I thank you so much.
    And to Mr. Nugent, I certainly thank you for the legal work that 
you are doing and your offer for the pro bono assistance that that are 
giving to this. Like our chairman here, Mr. Hastings, we know a lot 
about pro bono work, but we've never seen it extended in this manner, 
in such a crisis that is international in nature. So we certainly thank 
you a lot.
    Mr. Hastings, let me say that we need to find out more about what 
the so-called permanent processing center in the Green Zone is doing. 
If there is a processing center there, we need to understand exactly 
how it operates, what its intake process is, how it facilitates trying 
to assist the endangered Iraqis get out of Iraq and get to the United 
States.
    I do have to say that I attempted to talk with Ambassador Foley 
about this at another hearing. And it seems as if he had a broad 
mission, but he did not speak to us specifically about his mission to 
help those who were endangered. And I'll have to try and revisit that 
conversation with him.
    Let me say that I thank Mr. Ibrahim, I think as you have named him, 
our anonymous witness here today, not only for the assistance that he 
gave to our government, but for his bravery and for his courage and for 
his decision to help our American government.
    And I want to apologize for our government not having helped you in 
the way that it should. We did not reciprocate. And for all of those 
Iraqis who are there waiting, many of whose lives are in danger, I not 
only apologize, but I'm going to work as hard as I can to make sure 
that we speed up this process and that we live up to the commitment I 
thought we had made to those who would help us.
    So I really don't have questions. The questions really have been 
framed. You have so adequately identified what is not being done, and 
we see the volunteer work that is being done.
    It is our responsibility now to make this system work and to do 
everything that we can to ensure that we gain credibility with those 
who have helped us by implementing a process that makes good sense and 
that will provide safety for those who have placed themselves at great 
risk and great danger.
    So I am going to follow up and stay close to this issue, work with 
Mr. Hastings. And I might say, if there is to be another CODEL that you 
would be going on to Iraq, I'd like to participate, and I'd like to go 
directly to the processing center. I want to see how it operates.
    Then we need to do whatever we need to do to fashion amendments, 
perhaps, to some of the legislation that's going through the process 
right now that would strengthen our ability, if there are some 
loopholes that we can fill.
    So I thank you for allowing me to participate today. I'm sorry I 
cannot stay any longer, but I certainly get the picture, and I 
certainly understand very well what we need to do.
    Mr. Hastings. I suggest one of the things that you will learn is 
that they're open, with an inadequate staff in terms of numbers. People 
that were processed previously were processed in Jordan and Egypt and 
Syria and other places that they had try to find their way.
    As Ibrahim has pointed out, you saw the circuitous route. He went 
all over the world in an underground apparatus that wasn't successful 
and was traumatic in and of itself.
    But this processing center that just opened in the Green Zone--we 
were there a week before it opened, and I'm certain, as you and I have 
experienced--Ms. Waters and I have experience of a considerable amount 
of dealing with immigration policy in this country.
    And while we are emphatic about concerns about it--Iraqi refugees--
I spent an hour last night on the telephone, talking about Haitian 
refugees. And this is in our hemisphere in the processing. And Holland 
& Knight and others are doing pro bono work in that area as well.
    And then there are the border problems that Ms. Waters' 
constituency are constantly confronted with. And those borders are not 
just the Mexican borders. They have an Asian in-migration that is 
rather considerable. I was in Chinatown in Los Angeles, and I was 
astounded at the numbers that are being processed there.
    But, thank you, Ms. Waters. I recognize you have to go.
    Mr. Pitts, sorry to hold you up.
    Ms. Waters. If could for just one moment before Mr. Pitts raises 
his questions, I'd like to say, Mr. Hastings, that we may want to think 
about the supplemental. If there's something that we should do, let's 
not waste any time.
    Mr. Hastings. I hear you.
    Ms. Waters. Let's forward something and put it into the 
supplemental, and I don't think there'll be any real opposition to it. 
Thank you very much.
    Mr. Hastings. Thank you so very much. I appreciate it, Ms. Waters.
    Mr. Pitts.
    Mr. Pitts. Thank you very much, Mr. Chairman, for holding this 
important briefing. And I would like to echo the comments of Ms. Waters 
to specifically Mr. Ibrahim.
    Your testimony is very moving and very troubling, and I greatly 
appreciate the assistance that you and others have given our government 
and regret deeply hearing what you've had to experience.
    And to Mr. Johnson and Mr. Nugent, thank you for what you're doing. 
And I'd like to ask you if you could be specific. Can you identify some 
of the obstacles that you face from the administration in trying to 
help our Iraqi allies resettle in the U.S.? Be specific, if you can.
    Mr. Johnson. Well, the major obstacles are simply that the 
traditional refugee resettlement process is ill equipped to deal with 
emergency situations, such as we face with the Iraqis who are helping 
us.
    And so, while we try to ride herd where possible and pressure the 
various players in the process at State and DHS, there was, I think, a 
seven-month period where DHS agents couldn't even get visas in their 
passports for Damascus.
    So when you look at these pitfalls, I can't come to any other 
conclusion that this is a low priority or a non-priority from the White 
House. It's been a priority for Congress, but in the absence of any 
word from the president on this, I think that the bureaucracies don't 
have the force and the will from the president to act.
    And I think what results is a process that in some respects almost 
seems built to collapse inwards on itself.
    There are any number of reasons as to why an Iraqi who is running 
for their lives for helping us hasn't been able to make it here. They 
couldn't get a tuberculosis test. They couldn't pass that clearance.
    They were too scared to go to a police station. As we ask our 
refugees to provide a letter clearing them of any wrongdoing in the 
country that they've been refuged in, even though most of them are 
there illegally, so we're asking them to present themselves as illegals 
to the police departments and say, ``Hi, have I done anything wrong?''
    And some of them have been reluctant to do so, especially as we've 
heard from my colleague, when he was tortured in Egypt. And word like 
that spreads fairly quickly.
    I don't understand why this is so difficult. We have super power 
status after all, and we have so many options and examples from which 
to work that bypass this ridiculously long process, but still allow us 
to live up to our obligations to keep Americans safe and to save these 
refugees. We don't have a president who's willing to do it.
    Mr. Pitts. Mr. Nugent.
    Mr. Nugent. Yes. The processing delays, I think, are a major 
obstacle. The fact that they have to go through UNHCR interviews, and 
then they go through IOM interviews, then they go through their DHS 
interview--it becomes a very protracted process of numerous interviews 
which, in our asylum context in the United States, it's only one non-
adversarial interview.
    It's not all of these interview after interview after interview, 
where they're being retraumatized, having to tell their stories over 
and over and over again.
    Access to accurate information. The refugees are very disoriented. 
There's no orientation to them as to what the process is going to be. 
We give them that orientation--what's going to happen at your first 
interview, what's going to happen at your second interview. But the 
governmental or UNHCR, they don't provide that information to the 
refugees--step by step what is going to happen.
    And I would also say safety concerns come up quite frequently. We 
have a lot of different clients who end up being tortured in third 
countries. And I won't name all the different countries where they've 
been tortured.
    And there are mechanisms that we have under existing U.S. law, 
including humanitarian parole and special public benefit parole, to be 
able to get people out of harm's way, or for medical emergencies, to 
come to the United States and receive treatment here.
    But there's a resistance by State Department to utilize that. So 
out of Baghdad, for example, over the last few years, the DOD has been 
the champion of humanitarian parole and special public benefit parole, 
and they've been doing the requests to the Department of Homeland 
Security.
    But it has not been State Department cabling the Department of 
Homeland Security, saying, ``We've got this emergency case. Get this 
person out.'' But the Department of Defense has been much more 
responsive in the humanitarian parole and special public benefit parole 
process.
    But that's another tool that we could use with some of these 
emergency cases, which goes unutilized.
    Mr. Pitts. When you approached DHS or State Department about the 
problems with the system and processing, what has their response been 
to you?
    Mr. Nugent. That they're doing their best and that they have a lot 
of competing demands, and they have a lot of competing emergencies.
    But the other issue is that we don't get feedback on them on what 
action is actually taken in individual cases, and neither does the 
refugee, necessarily. We will forward X emergency is occurring, and 
then we don't necessarily get feedback.
    We had one case that was interesting of a family that was entering 
Jordan for resettlement. And there we reached out to UNHCR and State 
Department, because when the wife and the children entered Jordan, they 
were detained and then deported back to Iraq, even though they were 
reuniting with the husband, and they had a scheduled UNHCR interview.
    So second time around, we alert UNHCR and Department of State, and 
they do everything possible to work the Jordanians, and then they 
arrive again, and again they're being detained, and they're threatened 
with deportation, and the individual ended up being extorted $1,500 to 
get his family out, which I think shows you that these governments 
abroad are not really welcoming the refugee crisis.
    The Iraqis are not welcome in their countries. They see it as a 
burden in their countries, and they also are not really cooperative 
with the U.S. government on these different issues, including in Syria, 
for example, where they've delayed visas for DHS to do adjudications.
    So that's why Kirk's idea of an airlift, of getting them out of the 
region, is probably a preferable idea, because these countries do not 
want them, and we want them, and they worked with us. And they could do 
a mass processing, mass airlift, and that could be the solution.
    Mr. Pitts. How many Iraqi families are you losing per week, that 
return to Iraq, because they no longer can sustain themselves in their 
host country?
    Mr. Johnson. I would guess--there are dips and valleys--but I would 
guess that I think we're about two or three families every month, I 
would guess.
    The UNHCR made an assessment and a prediction that right around 
now, spring into summer of 2008, we were going to see a change in the 
refugee situation in the region, because they predicted that was the 
amount of time that the Iraqis could eke it out on their savings that 
they brought with them from Iraq.
    And there has been vast reporting that's occurred about women 
turning to survival sex to make money, and nobody is getting work 
permits, and so they've literally sold their farms to give it a shot to 
make it to the United States.
    And it's one of the worst parts of our job, having to try to 
convince them not to lose hope in the process and not to give up and go 
back to Iraq, where there are militias are still waiting for them, when 
we have, frankly, so little hope in the process that exists today.
    Mr. Pitts. And do you see that number increasing in the coming 
months?
    Mr. Johnson. I would guess so. There are so many that are right at 
the breakpoint. And none of them want to go, so it's a question of what 
their survival instincts are. And what else can they try to go, rather 
than going back to Iraq? It's safe to say that we haven't reached the 
end of it.
    Mr. Pitts. Do you have any information regarding the fate of the 
Iraqi families on your list, who have returned to Iraq?
    Mr. Johnson. What is alarming, and I hope I'm wrong and that we 
hear from them, but there are several cases that have gone silent on us 
in the last few months. And I can't tell if it's because the Internet's 
down in this part of Baghdad or not, but there are some that have gone 
off the grid, basically, and we're hoping that they're fine.
    And we're trying to push their cases through with the Baghdad ref 
court, but a lot of them are going back to radically reshaped 
communities, and they're still climbing right back into a state of 
hiding.
    Mr. Pitts. Does the U.S. government still put photos of Iraqi 
employees on our Web sites?
    Mr. Johnson. Not to my knowledge. In 2005 I recall there being an 
incident where a staff list wasn't properly shredded, that showed a 
number of Iraqi staffers, and it made it out to the Red Zone, and there 
was a rash of identifications of Iraqis who were helping us.
    I think that this has been going on long enough now that the U.S. 
government understands--at least our officials over there understand 
that they should make efforts to keep these Iraqis' identities 
concealed.
    But at the same time, they have not created some expeditious plan 
or program to keep them safe, when their affiliation with us turns 
lethal.
    Mr. Pitts. Has the permanent processing center in the Green Zone 
been of any assistance to you?
    Mr. Johnson. I should say that the small team that is there have 
been very responsive to us, and we have been working with them daily to 
push the cases and get them into the queue of our U.S. affiliated 
Iraqis.
    Having served over there myself, I understand the difficulties of 
working in Iraq and the stress and the long hours, so I would never 
knock their efforts. I think that the main State, the State in 
Washington, has not given them a robust enough team.
    They haven't given them enough members, and they haven't given them 
the logistical support. So we have Iraqis who can get an interview, but 
they can't get to it, unless they have our network of Americans in the 
Green Zone that help them get to their interviews, who are not part of 
the official process.
    So we're doing our best, and all these lawyers who are spending 
time trying to help the government implement its program, but after a 
point, it starts to feel a little ridiculous. Can't we do this a little 
better? We are the United States after.
    Mr. Pitts. I'd like to ask Mr. Nugent or Mr. Ibrahim if you have 
anything to add.
    Mr. Nugent. I wanted to comment on what happens to the Iraqis when 
they arrive here and the resettlement process. And we've been hearing a 
lot of complaints of Iraqis about the level of benefits that are being 
provided, which I think are still at the '80s level in terms of the 
financial benefits.
    And so after sacrificing in Iraq for the United States, they come 
to the United States and then the agencies are not really well equipped 
to deal with this population. And these are highly professional 
individuals with advanced degrees, and basically the job training 
they're getting is to go work at Target or McDonald's.
    And we're actually seeing lack of mental health resources for them, 
so some Iraqis who come, particularly on the SIV program, we've been 
seeing some of them going back, saying, ``I'd rather be a contractor in 
Iraq. I'll make $100,000. I'll get killed, but at least I'll get money 
for my family,'' because they're suffering from posttraumatic stress 
disorder that's not getting treated.
    So I think that's something for Congress to think about in terms of 
appropriations, helping the voluntary agencies with the benefits and 
the services, because this is a very unique and different population of 
refugees that we're dealing with that are highly educated, who really 
have special needs.
    Mr. Johnson. Can I add one point to that? Our focus has been on 
pressuring the United States to get them here.
    There are obviously--and this is not to take away from Mr. Nugent 
has said--there are obviously shortfalls in what happens to them after 
they get here. And our program is usually oriented toward uneducated 
refugees, and the folks that are in these binders here are lawyers, 
doctors, dentists.
    Part of the reason why we were in town this week is to launch the 
first job summit, where we invited scores of employers to come and meet 
the first 50 or so Iraqis who have made it to the United States.
    We invited members from the intelligence community, U.S. 
contractors still operating in Iraq, so that there's a chance for us to 
harness the great experience and capacities of this particular group of 
refugees, so that they find meaningful employment.
    So in that regard we've told the Iraqis that it's going to be a 
long slog when they get there and that they shouldn't expect some red 
carpet with services rolled out to them in some sort of Scandinavian 
model. And I've told them that my own family--we were garbage men when 
we first came for about 70 years in Chicago, and we don't have to haul 
garbage anymore.
    But not to say that that's their destiny, but they're getting the 
picture that it's the American way to pull yourself up, and we're 
trying to give them a boost. But at the same time, we haven't been 
focusing all of our times on calling for tons of freebies from the U.S. 
government.
    Mr. Pitts. How did your workshop turn out?
    Mr. Johnson. I know that within 30 minutes of the employer 
breakfast, two of the Iraqis got calls from recruiters. They all have 
topnotch resumes. There were, I think, roughly 100 American volunteers 
from the D.C. area that came and did job skills coaching skills and 
mock interviews.
    And they all came up to us and thanked us, because they hadn't 
received this kind of orientation when they arrived from their 
traditional resettlement NGO.
    Mr. Pitts. Finally, Mr. Ibrahim, are you getting the kind of 
assistance that you need now from the United States government?
    Mr. Ibrahim. I would say that I am receiving more than I expected 
from the American people. But in terms of governmental agencies, a 
simple example to shed light on something Kirk has just said, when I 
went to apply for my New York ID, the people there didn't know how to 
deal with my case, because they didn't know what the refugee documents 
are.
    And they rejected my application many times, until an organization 
that deals with refugees in New York had to contact some legislative 
counsel in Albany to convince them that I'm a refugee with no other 
documents except these documents, and they had to process my papers.
    So from government, if we move--that's another issue that I would 
like to add. Once we arrive in the United States, we reside in a 
certain state allocated to us by the DHS. Once we move outside the 
state, if we find a job or anything, we lose any benefits.
    So when I first moved to the United States, I was resettled in 
Tucson, Arizona. But then when I decided to join Kirk Johnson's 
efforts, and I came to New York City, I lost all the benefits, and I 
couldn't understand why should I lose the benefits because I decided to 
join work in another state. So still there are some issues about the 
benefits that we get, once we live here.
    Mr. Pitts. Thank you very much, Mr. Chairman, for this very, very 
informative briefing. And you've done a great public service, and I 
look forward to working with you.
    Mr. Hastings. Thank you very much, Mr. Pitts.
    Mr. Ibrahim, I know the numbers of the refugee agencies, the UNHCR 
and other nonprofits. But as an Iraqi and in discussing how many people 
are internally displaced or refugees in other parts of the world, what 
would be a street assessment of the numbers, or an Iraqi assessment of 
the numbers of people, the thousands that are displaced around the 
world?
    Mr. Johnson. Millions, I guess.
    Mr. Ibrahim. Yes, what we know is that there are two million Iraqis 
displaced inside Iraq. But what we hear from inside Iraq is that it's 
almost anybody is now displaced, because everybody had to move to the 
other part of the city where their sect is, where they belong to part 
of their one sect.
    The problem is with people we deal on The List Project, because 
they can't belong to any sect anymore. They are a sect on their own. 
They are the collaborators. Nobody welcomes them. If they are a Sunni, 
they can't go into the Sunni area anymore, so they try to stay in 
neutral areas or move somewhere like a Christian majority neighborhood. 
And that's another part of the problem that we are dealing with.
    And yes, there are two million Iraqis who are internally displaced, 
and there are huge numbers of Iraqis outside, and I've seen the 
miserable situation the Iraqis live in, whether in Syria and in Jordan, 
the persecution that they face and the humiliation they face by even 
their Arab fellow men. In Syria and in Egypt, nobody welcomes them.
    Mr. Hastings. Right. You cited to where I was going, and I'll go 
back there and ask you about the religious aspect of persons that are 
displaced and what kind of forces are they met with in the various 
sects.
    Mr. Ibrahim. Sunnis and Shiites are moving everybody towards the 
neighborhood that is classified Shiite. But recently there was a 
problem even in the Shiite areas, because some of them are loyal to 
Muqtada al-Sadr. Some of them are not loyal to Muqtada al-Sadr. So 
another type of displacement has been going on there.
    And for the Sunni people, now I think that some Sunni neighborhoods 
are being very actively fighting Al Qaida terrorists, which is bringing 
back some of the people from other neighborhoods. And I think that 
still the problem is going on, but it's changing the shape, as I see 
it, at any rate.
    Every time it takes one shape. One time it's a Sunni-Shia. One time 
it's a Sunni-Sunni problem. One time it's a Shia-Shia problem. And the 
Christian minority, they choose to flee out of the country.
    Mr. Hastings. An Iraqi official, who will remain unnamed, told me 
three weeks ago that they are doing--and I was offended by his 
comments--some people are internally displaced. That was the context of 
the question. He says, ``Well, we want them back, but we want the ones 
that we want to come back.'' And I thought that that was about as off 
the chain as I could imagine, under the circumstances.
    One thing that I think would be helpful, and that is to define in 
categories the persons who are displaced. Very occasionally, I know, 
with your list program, you do know what their backgrounds are. But one 
of the things that I think is a disconnect with the public that's going 
to need to rally in order to put the pressure on a president regarding 
these matters is what other kinds of services inside the Green Zone.
    As you all were talking, I've been inside the Green Zone, and I 
know what it takes to get in and out of there. I also know that all you 
have to do, depending upon who you are, is stand outside the Green 
Zone, and you see the convoys or you see the stream of people walking, 
so all of the so-called security--everybody doesn't work for USAID in 
the Green Zone. There are waiters and servants and all sorts of people 
that go in and out of there.
    And my belief--and Mr. Ibrahim, you correct me if I'm wrong--many 
of them are subjected to the same kind of danger as collaborators over 
and above interpreters and other people who may have worked. Am I 
correct in that regard? So then defining that would be helpful. But now 
let me put the real fly in the ointment, because folks don't like to 
talk about intolerance. Folks don't like to talk about prejudice. 
People don't like to talk about discrimination. And when they do, they 
fashion it in a way that I'm not prejudiced, but I recognize it.
    Now, in this situation with the Iraqis--and, Kirk, this is what I 
want you to look at, the example that you cite of the airlift, which I 
think could be used and should be used today. That took place in 1996. 
2001 September 11 had not occurred.
    After September 11, no matter what anybody says in this room, what 
kicked in and what is an obstacle that is not clear, both from the 
administration, from those of us that are policy-makers, from NGOs and 
everybody else is how much those stereotypical views of persons who 
even have an Arab name are met with in the processing, not just in the 
refugee processing, but people who are not refugees, that go in and out 
of airports.
    I look like I'm Arab. Six of 11 flights, I have been pulled aside 
to be wanded and everything, and that's just on looks. Now, when I get 
to Frankfurt, four out of five times I'm stopped, and that's because of 
someone making that kind of instant judgment.
    One of the fears that many people have that they will not express 
is if you bring in a significant number of Iraqis, you're going to 
bring in someone like the foul persons who did the dirty deed on 
September the 11th.
    That's in the room, and that is what is the unwritten kind of thing 
that we won't get to, unless those of us that are clear about what's 
needed, and vetting our people appropriately, will undertake to do 
that.
    I applaud you with your workshop. I hope it brings positive 
results. It has occurred for me to ask you to send me two or three 
resumes, and let me shop among my colleagues. It would be helpful, if 
somebody here in Congress would hire some Iraqi. There are many 
functions that take place here.
    I mentioned the two young ladies that work with me at Helsinki. I 
didn't mention from my staff, who is in the room, who actually assisted 
in authoring the legislation that gives rise to us being here, a young 
lady named Eve Lieberman.
    We have an office that does look like the world. This summer I will 
have Australian refugees, Indian national refugees. I now have a 
French--not refugee--a French intern, and that goes on and on and on.
    This is what it's about, so send me a couple of those refugee 
applications, and let me look at them and see if I can get them some 
jobs up here on the Hill.
    Mr. Johnson. Could I address the fly in the ointment? And I'll 
definitely send you the resumes. It would be great to get some staffers 
on the Hill.
    I think you're absolutely right, and I think there's a reluctance 
to face this.
    But if we ignore it, and if we don't address it, there are a great 
number of principles and values that we used to think were unique to 
America that are going to be lost, because if our moral fabric was so 
weak that it was torn by 9/11, that we now suddenly are incapable of 
seeing Iraqis who, by dint of their service to us--riding around in our 
Humvees with us, risking their lives to work for us--if we come to see 
these people as terrorists, I don't know what left there is to protect 
against terrorists.
    I think we risk losing the war on terror.
    If we can't reclaim a little nuance in our foreign policy and in 
our programs here, where we can say no, we reject this Manichean 
approach that if you're an Iraqi, you're trying to kill us, and 
remember that there are good Iraqis, one of whom seeks to our side now, 
who believes in the exact same ideals that we believe in--enough to 
risk his life for it--if we let more people like him go through what 
they are going through right now, and many of whom are being killed, I 
shudder to think of even what the consequences are, because I think you 
can only lose these principles once.
    And that's why I think this is a moral and strategic imperative 
that has no equal in the war in Iraq and in the war on terror. We have 
to reclaim some nuance, and this goes against what the president of the 
United States has been telling Americans for the last six years, 
basically, that Iraqis are terrorists. And he's been saying this to 
make the case for the invasion and to make the case for staying.
    And so it takes the public, which I do think gets this, and I think 
that they're a step ahead of the president, and it takes the Congress 
to reject that and to break up this concrete in our thinking and in our 
thoughts.
    Let's get our senses back here. There are allies, and there are 
enemies. And if we can't differentiate between them, we have lost our 
values.
    Mr. Hastings. Yes.
    Mr. Johnson. I wouldn't be doing this, if I didn't believe that it 
was possible for us to do it. I think that we need to take a deep 
breath and see our friends as friends, and then offer them swift help.
    Mr. Hastings. Right. Well, I have complimented you all, and I will 
continue to do so. And I think you have put very clearly what's on the 
table for us to deal with as policy-makers. I assure you that the 
colleagues that have manifested their interest in this particular issue 
are really moving swiftly to try to accomplish some positive ends.
    I would terribly remiss if I did not mention Congressman William 
Delahunt, who has been actively involved, from the perspective of the 
Judiciary Committee. And there are others, and once you start down that 
path, you leave names out. But I know that we have worked actively in 
this arena.
    Another thing, Kirk and Christ and Mr. Ibrahim and Joe, that 
develops from this, and why I have a keen interest, is when people are 
left with no hope--and this is put a different way than you just got 
through saying it, Kirk--they are in a vulnerable position to be 
recruited by those who would do them harm. And therefore, this is a 
very serious humanitarian crisis that does have national security 
implications, not just for America, but for the Middle East and for 
Europe and for the rest of the world. And it behooves us to try to 
understand these dynamics a lot better than we have in the past.
    And I think that this hearing today, this briefing, will add to 
better understanding. And I believe those of us that were here are 
easily going to try to follow through on many of your recommendations 
and try to get the attention of our colleagues as well.
    But all things considered, I think it has been an excellent 
briefing, riveting testimony. And I applaud you all, and let's go 
forward and make this thing work.
    I thank you, and we are concluded. Thank you all for being here.

                                   [all]





                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).
<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
